COMMONWEALTH of VIRGINIA
Office of the Attorney General
Mark R. Herring
Attorney General

202 North Ninth Street
Richmond, Virginia 23219
804-786-7704
FAX 804-371-0200
mkallen@oag.state.va.us

August 31, 2021
The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
Office of the Clerk
One First Street, N.E.
Washington, D.C. 20543
Re:

NC Financial Solutions of Utah, LLC v. Virginia, ex rel. Mark R.
Herring, No. 21-111

Dear Mr. Harris:
On August 30, 2021, we received the Court’s letter requesting that a response
to the petition for writ of certiorari be filed on or before September 29, 2021. On
account of our current workload, I respectfully request an extension of time, until
October 29, 2021, to file our brief in opposition.
We thank the Court for its consideration.
Very truly yours,
/s/ Michelle S. Kallen
Michelle S. Kallen
Acting Solicitor General of Virginia
Counsel of Record for Respondent
cc:

Seth P. Waxman, Esquire

